UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 18-3517
United States of America
Plaintiff - Appellee
v.
Scott Francis Fortier
Defendant - Appellant
Appeal from U.S. District Court for the District of Minnesota
(0:17-cr-00096-PJS-l)
JUDGMENT
Before LOKEN, GRASZ and STRAS, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
April 15, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

'Y k

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page lot 7
AO 245B (Rev. 11/16) Sheet I - Judgment in a Criminal Case

United States District Court
District of Minnesota

UNITED STATES OF AMERICA

§

JUDGMENT IN A CRIMINAL CASE

§

v.

§

SCOTT FRANCIS FORTIER

§
§
§

Case Number: 0:17-CR-00096-PJS-DTS(I)
USM Number: 21012-041
Scott J. Stronts

§

Defendant’s Attorney

THE DEFENDANT:
O
□
El

pleaded guilty to count(s)
pleaded nolo contendere to counts) which was accepted by the court
was found guilty on count 1 s and 2s after a plea of not guilty

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:2251(a) and 2251(e) PRODUCTION OF CHILD PORNOGRAPHY
18.2252(a)(4)(B) and 2252(b)(2) POSSESSION OF CHILD PORNOGRAPHY

Offense Ended
12/14/2016
12/14/2016

Count
Is
2s

The defendant is sentenced as provided in pages 2 through 7 ofthis judgment The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
0
0

The defendant has been found not guilty on count(s)
Count(s)
O is 0 are dismissed on the motion of the United States

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change ofname,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.
November 7.2018
Date of Imposition ofJudgment

s/Patrick J. Schiltz
Signature of Judge

PATRICK J. SCHILTZ
UNITED STATES DISTRICT JUDGE
Name and Title of Judge

November 7.2018
Date

1

ADDENDUM MdL
anAijc

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page 2 of 7
AO 24SB (Rev. 11/16) Sheet 2 - Imprisonment

DEFENDANT:
CASE NUMBER:

SCOTT FRANCIS FORTIER
0:17-CR-00096-PJS-DTS(l)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
300 months as to count Is and 240 months as to count 2s. said terms to ran concurrent.
E3

□

CD

The court makes the following recommendations to the Bureau of Prisons:
That the defendant be incarcerated in or near Minnesota.

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
D

at

□

as notified by the United States Marshal.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□
□
□

before
on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on
at

to

with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

2

ADDENDUM & -'l'

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page 3 of 7
Af^45EHRev^^/16^!hee^^JSugervise^Release

DEFENDANT:
CASE NUMBER:

SCOTT FRANCIS FORTIER
0:17-CR-00096-PJS-DTS(l)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a tram of: ten (10) years.

MANDATORY CONDITIONS
1.
2.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days ofrelease
from imprisonment and at least two periodic drug tests thereafter, as determined by the court
□ The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future
substance abuse, {check ifapplicable)
4- □ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution, {check ifapplicable)
5. EEJ You must cooperate in the collection of DNA as directed by the probation officer, {check ifapplicable)
6. Q You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense, {check ifapplicable)
7. D You must participate in an approved program for domestic violence, {check ifapplicable)
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

3

ADDENDUM

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page 4 of 7
AO 24SB (Rev. I l/J 6) Sheet 3A — Supervised Release

DEFENDANT:
CASE NUMBER:

SCOTT FRANCIS FORTIER
0:17-CR-00096-PJ S-DTS( 1)

STANDARD CONDITIONS OF SUPERVISION
As part ot your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to die probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave die federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify die probation officer at least 10 days before the change. If
notifying die probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit die probation
officer to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you
from doing so. If you do not have full-time employment you must try to find fidl-time employment, unless the probation officer
excuses you from doing so. Ifyou plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying die probation officer at least
10 days in advance is not possible due to unanticipated circumstances, you must notify die probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting die permission of
the probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, die specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about die risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at www.uscourts.gov.
Defendant’s Signature ____

Date

Probation Officer’s Signature

Date

4

ADDENDUM A

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page 5 of 7
AQ245B(Rev. 11/16) Sheet 3D-Supervised Release

DEFENDANT:
CASE NUMBER:

SCOTT FRANCIS FORTIER
0:17-CR-00096-PJS-DTS( 1)

SPECIAL CONDITIONS OF SUPERVISION
1.

You must comply with both the mandatoiy and the standard conditions of supervised release described in § 5D13 of the
version of the United States Sentencing Guidelines that took effect on November 1,2018.

2. You must not view, receive, possess, distribute, produce, or have access to child pornography.
3. You must not knowingly associate with anyone under the age of 18 except in the presence of a responsible adult who is
aware ofthe current offense and who has been approved in advance by the probation officer.
4. You must not have contact of any kind—including, but not limited to, contact through visits, letters, phone calls, emails, text
messages, social media, real-time chats, or any other means— either personally or through a third party—with the two
victims ofyour crime without the prior consent of the probation officer.
5. You must participate in sex-offender treatment, mental-health treatment, or both, as approved by fee probation officer, and
you must submit to risk assessment Any such treatment or assessment must be conducted by a therapist approved in
advance by fee probation officer. You must contribute to fee costs of such treatment or assessment as determined by the
Probation Office Co-Payment Program.
6. You must register wife fee state sex-offender registration agency in Minnesota and in any other state in which you reside,
work, or are a student, and you must follow all of the other requirements offee Sex Offender Registration and Notification
Act
7. You must not possess or use a computer or have access to fee Internet without fee prim- approval of fee probation officer.
You must identify to fee probation officer all computer systems, internet-capable devices, and similar memory and electronic
devices to which you have access, and you must allow installation of a computer- and internet-monitoring program.
Monitoring may include random examination of computer systems and of internet, electronic, and media-storage devices
under your control. The computer system or devices may be removed for a more thorough examination, ifnecessary.
8. You must allow a probation officer or someone designated and supervised by fee probation officer to search your person,
residence, office, vehicle, or any area under your control. The search must be based on reasonable suspicion ofcontraband or
evidence of a supervision violation, and it must be conducted at a reasonable time and in a reasonable manner. You must
warn any other residents or affected third parties feat your residence, office, vehicle, and areas under your control may be
subject to searches under fee conditions I have just described.
9. You must give fee probation officer access to any requested financial information feat will assist fee probation officer in
monitoring your compliance wife these conditions of supervised release, including bank statements, credit-card bills,
telephone bills, bills from internet-service providers, and bills from cable- or satellite-television providers.
10. Ifyou do not maintain full-time, lawful employment as deemed appropriate by the probation officer, you may be required to
do community-service work for up to 20 hours per week until you become employed. You may also be required to
participate in training, counseling, or daily job searching as directed by fee probation officer.
The probation office is directed to furnish to you a written statement of all of fee conditions of your supervised release.

5

ABSENStJM

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page 6 of 7
DEFENDANT:
case NUMBER-

SCOTT FRANCIS FORTIER
0:17-CR-00096-PJS-DTS(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments.
Assessment
JVTA Assessment*
Fine

TOTALS
0

$200.00

$10.000,00

Restitution

$.00

$.00

The determination of restitution is deferred until
An Amended Judgment in a Criminal Case (A0245C)
will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in ihe amount
listed below.

0

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18
U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.

Name and Address of Payee

;**TotalLoss

Restitution
• Ordered

..

••

Priority or -fe
Percentage "

N/A

TOTALS:

$0.00

$0.00

0.00%

Payments are to be made to the Clerk, UJS. District Court, for disbursement to the victim.
f~l

Restitution amount ordered pursuant to plea agreement S

H

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of die judgment, pursuant to 18 U.S.C. § 3612(f). All of die payment options may be subject to
penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
0 the interest requirement is waived for the
0 fine
0 restitution
0 the interest requirement for the
0 fine
0 restitution is modified as follows:

0

* Justice for Victims ofTraffidring Act of2015. Pub. L. No. 114-22
** Findings for the total amount oflosses are required under Chapters 109A110.110A.and 113AofTrtle 18 for offenses committed on or after September 13,1994,
but before April 23.1996.

ADPENPtfM /g-<b
6

CASE 0:17-cr-00096-PJS-DTS Document 130 Filed 11/07/18 Page 7 of 7
AQ24SB(Rev. 11/16) Sheet 6—Schedule of Payments

DEFENDANT:
CASE NUMBER:

SCOTT FRANCIS FORTIER
0:17-CR-00096-PJS-DTS( 1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

Q

Lump sum payments of $

0

not later than

0

in accordance

B

0

Payment to begin immediately (may be combined with

C

0

Payment in equal

D

0

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e g, months or years), to commence
(e g-, 30 or 60 days) after release from imprisonment
to a term of supervision; or

E

0

Payment (hiring the term of supervised release will commence within_________
(e.g., 30 or 60 days) after release
frmn imprisonment The court will set the payment plan based on an assessment of the defendant’s ability to pay at that

F

03

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $200.00 for Counts Is and 2s,
which shall be dne immediately. Said special assessment shall be paid to the Clerk, U.S. District Court

due immediately, balance due
,or
□

C,

0

D,

0

E,or

□ c,

0

F below; or

0

D, or

Q

F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
_ (eg-, months or years), to commence
(e g , 30 or 60 days) after the date of this judgment; or

Unl^s the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
0

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate:

0
0

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following court cost(s):

0

1,16 defendant shall forfeit the defendant’s interest in the following property to the United States: All property identified in the
preliminary order of forfeiture.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

7

ABPOIPUM

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3517
United States of America
Appellee
v.

Scott Francis Fortier
Appellant

Appeal from U.S. District Court for the District of Minnesota
(0:17-cr-00096-PJS-1)
ORDER
The petition for rehearing by the panel is denied.
May 18,2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

'*

6.18.2251(a) SEXUAL EXPLOITATION OF A
CHILD BY A PERSON OTHER THAN PARENT
OR GUARDIAN (18 U.S.C. 2251(A)

The crime of sexual exploitation of a child, as charged in
[Count

ofj the Indictment has four elements, which are:

One, at the time alleged, (name of minor) was under the age of
eighteen years;
Two, the defendant knowingly:
a) [employed] [used] [ persuaded] [induced] [enticed] [coerced]
(name of minor) to engage in sexually explicit conduct; or
b) Had (name of minor) assist another person or persons to engage
in sexually explicit conduct; or
c) Transported (name of minor) [across state lines] [in foreign
commerce] [in any Territory or Possession of the United States]
with the intent that (name of minor) engage in sexually explicit
conduct;
Three, the defendant acted with the purpose of [producing a
visual depiction of such conduct] [transmitting a live visual
depiction of such conduct]; and
Four, a) the defendant knew or had reason to know that such
visual depiction [e.g., video tape] would be [mailed] [transported
across state lines or in foreign commerce; or
b) the visual depiction was produced using materials that had
been mailed, shipped, or transported across state lines or in
foreign commerce.

APPENDIX D

